NO. 19-255
IN THE

Supreme Court of the United States
THOMAS MORE LAW CENTER,
Petitioner,
v.
MATTHEW RODRIQUEZ, ACTING ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,
Respondent.
On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITIONER’S MOTION FOR LEAVE TO FILE
MERITS REPLY BRIEF OUT-OF-TIME
LOUIS H. CASTORIA
KAUFMAN DOLOWICH
& VOLUCK, LLP
425 California Street
Suite 2100
San Francisco, CA 94104

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
DAVID A. CORTMAN
RORY T. GRAY
CHRISTOPHER P. SCHANDEVEL
MATHEW W. HOFFMANN
ALLIANCE DEFENDING FREEDOM
440 First Street, NW
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org
Counsel for Petitioner

Petitioner Thomas More Law Center respectfully seeks the Court’s leave to
file its merits reply brief one day out-of-time. In support of its motion, Petitioner
states:
1.
Oral argument is scheduled in this case and the consolidated case of
Americans for Prosperity Foundation v. Rodriquez, No. 19-251, for Monday, April
26, 2021. Accordingly, under Supreme Court Rule 25.3, Petitioner’s reply brief was
due to “be received by the Clerk not later than 2pm 10 days before the oral
argument,” i.e., on Friday, April 16, 2021.
2.
Regrettably, Petitioner docketed the deadline for the reply brief based
on the Court’s pre-July 1, 2019 Rules. Under Rule 25.3 of those Rules, the reply
brief was due to “be received by the Clerk not later than 2 p.m. one week before the
date of oral argument,” i.e., on Monday, April 19, 2021.
3.
As soon as Petitioner realized the rule change, on Saturday morning,
April 17, 2021, Petitioner promptly efiled the reply brief, emailed the brief to
Counsel of Record for Americans for Prosperity Foundation, California Attorney
General Rodriquez, and the United States, and to the Clerk’s office, and notified the
Clerk’s office of the mistake. The Clerk’s office instructed Petitioner to also submit
this Motion for Leave to File Merits Reply Brief Out-of-Time.
4.
Although the submission of Petitioner’s reply brief is after the
expiration of time prescribed in current Rule 25.3, the Court should accept the brief
for filing. The Court has the power, in its discretion and in the interests of justice, to
accept a brief filed out-of-time. See generally Bowles v. Russell, 551 U.S. 205, 212
(2007) (“[t]he procedural rules adopted by the Court for the orderly transaction of its
business are not jurisdictional and can be relaxed by the Court in the exercise of its
discretion”) (quoting Schacht v. United States, 398 U.S. 58, 64 (1970)). The absence
of any jurisdictional language in Rule 25.3 confirms that it is a Rule governing the
orderly processing of briefs that can be relaxed where appropriate. Compare Rule
25.3 (“any reply brief must actually be received by the Clerk not later than 2 p.m.
10 days before the date of oral argument) with, e.g., Rule 13.2 (“The clerk will not
file any petition for a writ of certiorari that is jurisdictionally out of time. See, e.g.,
28 U.S.C. § 2101(c).”) (emphasis added).
5.
Here, justice is best served by accepting Petitioner’s merits reply brief
for filing. All counsel and the Court have been provided with electronic copies of the
brief, the modest delay in submission was purely a clerical error, and the brief
presents important arguments that the Court should consider when deciding this
dispute and the companion case. Petitioner apologizes for any inconvenience the
Court has experienced from our mistake in docketing the deadline.

6.
Counsel of Record for Americans for Prosperity Foundation and
Counsel of Record for the California Attorney General both consent to the relief
requested in this Motion.
7.
For the foregoing reasons, Petitioner respectfully requests that the
Court grant leave to accept their Merits Reply Brief outside the time limits
contained in Rule 25.3.
Respectfully submitted,
Kristen K. Waggoner
John J. Bursch
Counsel of Record
David A. Cortman
Rory T. Gray
Christopher P. Schandevel
Mathew W. Hoffmann
Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org
Louis H. Castoria
Kaufman Dolowich
& Voluck, LLP
425 California Street
Suite 2100
San Francisco, CA 94104
Counsel for Petitioner
April 17, 2021

